               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Efficiency Review of the Cleveland,
      OH Processing and Distribution
                   Center

                       Audit Report




                                              June 5, 2012

Report Number NO-AR-12-005
                                                                          June 5, 2012

                                            Efficiency Review of the Cleveland, OH
                                                Processing and Distribution Center

                                                       Report Number NO-AR-12-005



IMPACT ON:
Mail processing operations at the           increase mail volume by 377 million
Cleveland Processing and Distribution       mailpieces through consolidation with
Center (P&DC) located in the Northern       another facility, or a combination of both
Ohio District in the Eastern Area.          factors. We also recommended the vice
                                            president periodically evaluate operating
WHY THE OIG DID THE AUDIT:                  efficiency and staffing at the Cleveland
We identified the Cleveland P&DC as         P&DC to determine whether further
having substantial potential for savings    workhour adjustments are necessary
through improved efficiency. Our            based on workload. Additionally, we
objective was to assess the efficiency of   recommended the Cleveland P&DC
the Cleveland P&DC mail processing          maximize the utilization of automated
operations. To maximize efficiency, the     equipment, improve supervision of
goal is to process mail with the least      employees, and train employees to
amount of resources and still achieve       properly color-code Standard Mail®.
service time frames.
                                            WHAT MANAGEMENT SAID:
WHAT THE OIG FOUND:                         Management agreed with the
While the Cleveland P&DC made               recommendations and plans to
significant progress in increasing          consolidate other plants into the
productivity during the past several        Cleveland P&DC, increasing both
years, further opportunities exist for      efficiency and equipment utilization. In
improvement. Specifically, the              addition, management will continue to
Cleveland P&DC did not attain the           monitor efficiency and realign
efficiency achieved by other large          supervisors. Management has
P&DCs or take full advantage of existing    completed color-code training and is
automation. Increasing operational          conducting daily reviews.
efficiency at the Cleveland P&DC by
reducing 352,388 mail processing            AUDITORS’ COMMENTS:
workhours could produce a cost              The OIG considers management’s
avoidance of over $11 million in labor      comments responsive to the
savings per year.                           recommendations and corrective actions
                                            should resolve the issues identified in
WHAT THE OIG RECOMMENDED:                   the report.
We recommended the vice president,
Eastern Area Operations, reduce             Link to review the entire report
workhours to produce an annual cost
avoidance of over $11 million , or
June 5, 2012

MEMORANDUM FOR:             JORDAN M. SMALL
                            VICE PRESIDENT, EASTERN AREA OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Efficiency Review of the Cleveland, OH
                            Processing and Distribution Center
                            (Report Number NO-AR-12-005)

This report presents the results of our audit of the efficiency of the Cleveland, OH
Processing and Distribution Center (Project Number 12XG007NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Frank Neri
    Todd S. Hawkins
    Rose M. Spraggins
    Corporate Audit and Response Management
Efficiency Review of the Cleveland, OH                                                                                 NO-AR-12-005
 Processing and Distribution Center



                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Comparison to Other Processing and Distribution Centers ............................................... 2

   Potential Sources of Workhour Reductions .................................................................... 4

   Employee Complement ................................................................................................. 14

   Causes and Impacts on Operations .............................................................................. 15

   Cleveland Processing and Distribution Center Management Actions ......................... 15

Recommendations ............................................................................................................ 15

Management’s Comments ................................................................................................ 16

Evaluation of Management’s Comments .......................................................................... 16

Appendix A: Additional Information................................................................................... 17

   Background .................................................................................................................... 17

   Objective, Scope, and Methodology ............................................................................. 18

   Prior Audit Coverage ..................................................................................................... 19

Appendix B: Cleveland Processing and Distribution Center Suggestions for Improving
     Efficiency ................................................................................................................ 21

Appendix C: Monetary Impact........................................................................................... 22

Appendix D: Management’s Actions ................................................................................. 23

Appendix E: Management’s Comments ........................................................................... 25
Efficiency Review of the Cleveland, OH                                                               NO-AR-12-005
 Processing and Distribution Center



Introduction

This report presents the results of our audit of the efficiency of the Cleveland, OH
Processing and Distribution Center (P&DC) (Project Number 12XG007NO000). The
objective was to assess the efficiency of operations at the Cleveland P&DC. The self-
initiated audit addresses operational risk. See Appendix A for additional information
about this audit.

The Postal Service faces significant financial challenges. It concluded FY 2011 with a
net loss of almost $5.1 billion, despite reducing operating expenses by $4.8 billion. In
FY 2011, the loss from operations was just over $4.9 billion. The net loss would have
been $10.6 billion had it not been for an extension of a provision allowing the Postal
Service to defer certain benefit payments. Streamlining the processing network is key to
reducing operating costs. The Cleveland P&DC is one of the largest distribution centers
of the Postal Service’s more than 300 facilities, processing more than 1.4 billion first
handled pieces (FHP) in FY 2011, a decrease of about 3 percent from FY 2010 (see
Figure 1).

We performed this audit based on the results of a review of overall plant efficiency. 1
During that review, we identified the Cleveland P&DC as having the potential for
significant savings through improved efficiency. To maximize efficiency, the goal is to
process mail with the least amount of resources and still achieve service time frames.


                 Picture 1: The Cleveland Processing and Distribution Center




           Source: U.S. Postal Service OIG photograph taken August 26, 2011.




1
    Assessment of Overall Plant Efficiency 2011, (Report Number NO-MA-11-004, dated May 20, 2011).
                                                           1
Efficiency Review of the Cleveland OH                                                               NO-AR-12-005
 Processing and Distribution Center


Conclusion

While the Cleveland P&DC made significant progress in increasing productivity during
the past several years, further opportunities exist for improvement. Specifically, the
Cleveland P&DC did not attain the efficiency achieved by other P&DCs or take full
advantage of existing automation.

These conditions occurred, because Cleveland P&DC management did not fully
evaluate operational efficiency by benchmarking operations against other Group 1 2
P&DCs, analyze workhour trends, and supervise their employees. In addition, the
Cleveland P&DC did not fully assess its potential automation options. Consequently, the
Cleveland P&DC was using more workhours than necessary to process its mail volume.

To increase productivity to the median Group 1 plant of 1,069 mailpieces processed per
workhour, Cleveland P&DC management needs to either:

     Reduce workhours by 352,388, which would produce a cost avoidance over
      $11 million per year (see Appendix C for details), or;

     Increase mail volume through consolidations by 377 million pieces, or;

     Combine workhour reductions and mail volumes increases.

Comparison to Other Processing and Distribution Centers

The Cleveland P&DC FHP productivity ranks 38 of 43 similar size (Group 1) plants as
shown in Chart 1. Productivity for the Cleveland P&DC and Group 1 P&DCs increased
faster than the national average during the period fiscal year (FY) 2009 to FY 2011 (see
Table 1). Raising Cleveland P&DC productivity to the median Group 1 plant would
require the reduction of 352,388 workhours at existing FHP levels (see Table 2).
Maintaining the existing workhour levels and increasing the volume of mail processed
by 377 million pieces would also raise productivity to the Group 1 plant average.
Consolidating mail processing operations from other plants would be one way to
increase the volume at the Cleveland P&DC. This would also increase machine
utilization at the Cleveland P&DC.




2
    Group 1 plants are the 43 largest P&DCs based on FHP volume. See Appendix A for additional information.


                                                          2
Efficiency Review of the Cleveland OH                                                   NO-AR-12-005
 Processing and Distribution Center


                       Chart 1: Group 1 FHP Productivity for FY 2011




Source: Postal Service, Enterprise Data Warehouse (EDW).

                           Table 1: Productivity Comparison (FHP)

                                              National          Group 1
               Fiscal Years                                                  Cleveland P&DC
                                              Average           Average
                 FY 2009                      789 PPH           888 PPH           704 PPH
                 FY 2010                      849 PPH           968 PPH           783 PPH
                FY 2011                       894 PPH          1,036 PPH          847 PPH
            Percent Increase
                                                13%                17%              20%
           FY 2009 - FY 2011
   Source: Postal Service, EDW. Pieces per hour (PPH).

                                 Table 2: Productivity Savings

                                                 Group 1 Median Plant
                                                   (Houston P&DC)              Cleveland P&DC
FY 2011 FHP Volume                                  1,602,289,281               1,440,732,212
FY 2011 Workhours                                        1,499,393                 1,700,598
FY 2011 Productivity*                                      1,069                       847
FY 2011 Cleveland P&DC Workhours                                     1,700,598
Cleveland P&DC Target Workhours**                                    1,348,210
       Potential Workhour Savings                                    (352,388)
Source: EDW. *Productivity is measured in processed pieces per workhour. **Target workhours are the
number of workhours necessary to raise Cleveland P&DC productivity to the median Group 1 plant.


                                                  3
Efficiency Review of the Cleveland OH                                        NO-AR-12-005
 Processing and Distribution Center



The Cleveland P&DC’s handling ratio is also higher than the Group 1 plant average.
The handling ratio is the number of times each mailpiece is handled. It is calculated by
dividing total pieces handled by FHP. Generally, the lower the handling ratio, the more
efficient the plant. Cleveland P&DC employees handle mail 2.01 times compared to the
Group 1 P&DC handling ratio of 1.85 times. Decreasing the handling ratio will help
improve operational efficiency.

Potential Sources of Workhour Reductions

We identified specific mail processing functions in which the Cleveland P&DC could
improve efficiency. Table 3 shows a complete breakdown of potential workhour savings
by labor distribution category (LDC). The potential workhour savings were calculated by
raising Cleveland P&DC productivity to the average productivity of all Group 1 plants
above the median productivity. For LDCs 10, 17, and 18, productivity was calculated as
a percentage of total workhours as they are supervisory and ancillary functions.
Whereas LDCs 11, 13, and 14 productivity was calculated as PPH, since mail volume is
directly involved. Other LDCs not listed in Table 3 were as productive as or more
productive than the Group 1 plants above the median productivity.

                     Table 3: Summary of Potential Workhour Savings

                                                   Potential Workhour Savings
                      LDC 10 – Supervision                  18,152
                  LDC 11 – Letter Automation                27,968
                  LDC 13 – Parcel Distribution              33,724
                 LDC 14 – Manual Distribution               100,584
                  LDC 17 – Allied Operations                125,575
             LDC 18 – Miscellaneous Operations              63,046
                                Total                       369,049
           Source: EDW.

LDC 10 - Supervision

The Cleveland P&DC used a higher percentage of supervision workhours when
compared to the average of the other above median Group 1 plants. Above median
Group 1 plants on average, use 5.32 percent of total mail processing workhours, while
the Cleveland P&DC uses 6.39 percent. Reducing supervisor workhours by 18,152
would enable the Cleveland P&DC to achieve the average productivity of the above
median average Group 1 plants (see Table 4).




                                               4
Efficiency Review of the Cleveland OH                                                NO-AR-12-005
 Processing and Distribution Center


                Table 4: LDC 10 Supervision Potential Workhour Savings

                                               Above Median Plants        Cleveland P&DC
   LDC 10 Workhours                                1,758,908                  108,697
   Total Workhours                                  33,035,485                1,700,598
   LDC 10 Percent to Total Workhours                   5.32%                    6.39%
   FY 2011 Cleveland P&DC LDC 10
                                                                  108,697
   Workhours
   Cleveland P&DC Target Workhours*                                90,545
         Potential Workhour Savings                               (18,152)
  Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
  productivity to the average of the above median Group 1 plants.

Observations at the Cleveland P&DC revealed supervisors were not always fully
engaged. We noted some employees leaving operations early and taking extended
breaks. In addition, not all supervisors were aware of how their operation affected other
operations (see Picture 2).



Picture 2: An idle employee eating
on the workroom floor. The
supervisor indicated that the
employee was not on break or
lunch. Only after our inquiry did
the supervisor instruct him to get
back to work. Source: OIG, January
10, 2012, 12:58 p.m.




LDC 11 - Letter Automation

Opportunities exist to increase the Cleveland P&DC’s efficiency in letter automation and
delivery barcode sorter (DBCS) operations. Above median Group 1 plants process on
average 4,069 PPH, while the Cleveland P&DC DBCS processes 3,727 PPH. Reducing
LDC 11 workhours by 27,968 would enable the Cleveland P&DC to achieve the average
productivity of the above median Group 1 plants (see Table 5).




                                                5
Efficiency Review of the Cleveland OH                                                   NO-AR-12-005
 Processing and Distribution Center


            Table 5: LDC 11 Letter Automation Potential Workhour Reductions

                                                 Above Median Plants         Cleveland P&DC
     LDC 11 FHP Volume                             27,390,776,635             1,240,710,852
     LDC 11 Workhours                                  6,732,108                 332,910.07
     LDC 11 Productivity                                  4,069                     3,727
     FY 2011 Cleveland P&DC LDC 11
                                                                     332,910
     Workhours
     Cleveland P&DC Target Workhours*                                304,942
          Potential Workhour Savings                                (27,968)
    Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
    productivity to the average of the above median Group 1 plants.

Several factors negatively impacted the efficiency of the Cleveland P&DC DBCSs. For
example, the Cleveland P&DC FY 2011 DBCS throughput was 35,356 PPH. This
ranked Cleveland P&DC at 29 of 43 Group 1 plants. The best Group 1 plant exceeded
37,000 PPH. Also, the Cleveland P&DC FY 2011 jam rate was 2.89 jams per 10,000
pieces. This ranked the Cleveland P&DC at 41 of 43 Group 1 P&DCs. The best Group 1
plant had a jam rate of less than 1.25 jams per 10,000.

Moreover, the Cleveland P&DC has the potential to increase letter mailpiece volume by
reducing machine idle time. By reducing DBCS’s idle time, the Cleveland P&DC could
process an additional 420.3 million mailpieces annually.

Observations at the Cleveland P&DC revealed the following:

     Some employees charged time to automation while working other functions.

     Some mail processing machines were understaffed. For example, several machines
      operated with one employee. It is more efficient to operate fewer machines with two
      employees (see Picture 3).

     Some employees were frequently idle.

     Large overlaps in tours meant automation equipment was not available for all
      employees and increased idle times.

     Available automation was not always used (see Picture 4). In another example, the
      tray systems located at the DBCSs were not used (see Picture 5).




                                                   6
Efficiency Review of the Cleveland OH       NO-AR-12-005
 Processing and Distribution Center




Picture 3: A DBCS staffed by only
one employee when two are
needed. Here, the feed belt is
empty, as the machine has run out
of mail. It is difficult for the
operator to keep the machine fed
and perform the required sweeps
of the bins. Source: OIG, January
10, 2012, 4:10 p.m.




Picture 4: An excessive number of
mail processors clocked in to an
automation operation and manually
sorted machineable mail trays. One
of six robots or the low cost tray
sorter could handle this sortation
more efficiently. Source: OIG,
January 11, 2012, 10:43 p.m.




Picture 5: With a few exceptions,
the tray takeaway system located
at each DBCS has not been used
for over a year. Not using the
available automation increases the
use of less efficient manual
handling of trays. Source: OIG,
January 10, 2012, 3:57 p.m.




                                        7
Efficiency Review of the Cleveland OH                                                NO-AR-12-005
 Processing and Distribution Center


LDC 13 - Parcel Distribution

The Cleveland P&DC can improve the efficiency of its parcel distribution operation.
Above median Group 1 plants processed on average 228 PPH during FY 2011, while
the Cleveland P&DC processed 188 PPH. Increasing the Cleveland P&DC to the
average of the above median Group 1 plant could save 33,724 workhours annually (see
Table 6).

           Table 6: LDC 13 Parcel Distribution Potential Workhour Savings

                                               Above Median Plants        Cleveland P&DC
   LDC 13 Volume                                    849,035,897              36,368,282
   LDC 13 Workhours                                 3,728,985.91               193,455
   LDC 13 Productivity                                   228                     188
   FY 2011 Cleveland P&DC LDC13
                                                                  193,455
   Workhours
   Cleveland P&DC Target Workhours*                               159,730
         Potential Workhour Savings                               (33,724)
  Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
  productivity to the average of the above median Group 1 plants.

The largest operation within LDC13 was the automated parcel bundle sorter (APBS).
Cleveland FY 2011 P&DC productivity on the APBS was 318 PPH, while the above
median Group 1 plants productivity was 613 PPH. Observations at the Cleveland P&DC
revealed idle employees on the APBS (see Picture 6).



Picture 6: This is the APBS run-out
belt. Every space on the belt is
filled with a parcel. As a result, two
(not shown) of the six keyers
cannot process mail, because the
first four keyers fill every available
space. As a result, two keyers sit
idle waiting for a space on the belt
to open.
Source: OIG, January 10, 2012,
4:36 p.m.




LDC 14 - Manual Distribution

The Cleveland P&DC can improve the efficiency of its manual distribution operation.
Above median Group 1 plants process on average 669 PPH, while the Cleveland P&DC


                                                8
Efficiency Review of the Cleveland OH                                                  NO-AR-12-005
 Processing and Distribution Center


processes 318 PPH. Increasing the Cleveland P&DC to the average of the above
median Group 1 plants could save 100,584 workhours annually (see Table 7). In
addition, Table 8 provides information on specific manual operations.

                             Table 7: LDC 14 Manual Distribution

                                              Above Median Plants            Cleveland P&DC
  LDC 14 Volume                                  2,085,293,449                  61,124,745
  LDC 14 Workhours                                     3,118,917                192,006
  LDC 14 Productivity                                    669                      318
  FY 2011 Cleveland P&DC LDC 14
                                                                   192,006
  Workhours
  Cleveland P&DC Target Workhours*                                  91,423
        Potential Workhour Savings                                 (100,584)
 Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
 productivity to the average of the above median Group 1 plants.

                       Table 8: Productivities for Manual Operations

           Operation              Operation                Above          Cleveland
            Number               Description               Median           P&DC
                            Manual Letter-Outgoing
               030                                         713 PPH           469 PPH
                                   Primary
                            Manual Letter-Outgoing
               040                                        1,042 PPH          337 PPH
                                  Secondary
                            Manual Letter-Incoming
               168                                         994 PPH           85 PPH
                            Box Section Distribution
                            Manual Letter Case-Box
               169                                         224 PPH           29 PPH
                               Final Distribution
               170           Manual Flat-Incoming          623 PPH           229 PPH
          Source: EDW.

Observations at the Cleveland P&DC revealed overstaffed operations, idle employees,
and machineable mail being processed manually (see Pictures 7, 8, and 9).




                                                9
Efficiency Review of the Cleveland OH                                       NO-AR-12-005
 Processing and Distribution Center




Picture 7: Five employees work
small parcels from one hamper in
the outgoing First-Class small
parcel breakdown area. Too many
employees working from one
hamper was very inefficient.
Source: OIG, January 10, 2012,
9:49 p.m.




Picture 8: An employee sorting
machineable letters in the manual
flat operation. Processing these
letters on automation equipment
would be more efficient. Source:
OIG, January 11, 2012, 9:14 p.m.




Picture 9: Many mail trays in the
manual operations were clearly
machineable. This mail was not
barcoded or processed on a mail
processing machine. Source: OIG,
January 10, 2012, 9:37 p.m.




LDC 17 - Allied Operations

Allied operations provide the greatest opportunity for the Cleveland P&DC to reduce
workhours. LDC 17 or Allied operations include mail preparation, presort operations,



                                           10
Efficiency Review of the Cleveland OH                                                 NO-AR-12-005
 Processing and Distribution Center


opening, pouching, and platform operations. During FY 2011, the Cleveland P&DC used
more than 40 percent of its processing workhours in LDC 17, while the above median
average Group 1 plants on average used just over 33 percent of their workhours in
allied labor. Reducing LDC 17 workhours by 125,575 would enable the Cleveland
P&DC to raise productivity to the average of the above median Group 1 plants (see
Table 9). Also, Table 10 provides information on specific allied operations.

            Table 9: LDC 17 Allied Operations Potential Workhour Savings

                                                    Above Median Plants      Cleveland P&DC
    LDC 17 Workhours                                     10,390,698                690,807
    Total Workhours                                      31,262,182               1,700,598
    LDC 17 Percentage to Total Workhours                  33.24%                   40.62%
    FY 2011 Cleveland P&DC LDC17
                                                                      690,807
    Workhours
    Cleveland P&DC Target Workhours*                                  565,233
         Potential Workhour Savings                                   (125,575)
 Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
 productivity to the average of the above median Group 1 plants.

                   Table 10: LDC 17 Productivities for Allied Operations

         Operation                Operation                    Above            Cleveland
          Number                 Description                   Median             P&DC
         004 & 015        AFCS 200 & Advanced Facer            16,521            10,205
             140                  Mail Preparation              1,832             1,157
          210 -214                      Platform                 13%               19%
             229           Equipment Operator – Tow            13.79%             11.96%
             230          Equipment Operator - Forklift         3.61%             5.89%
             231                        Expediter               9.99%             14.34%
        Source: EDW.


Additionally, reducing idle time on the Automated Facer Canceller System (AFCS) by
50 percent would allow the Cleveland P&DC to process an additional 80.5 million
mailpieces annually. Observations at the Cleveland P&DC revealed the following:

    Congested docks prevented efficient usage of power equipment
     (see Picture 10).

    Idle employees waited for mail in various operations (see Picture 11).

    Employees waited at the time clock as long as 35 minutes before the end of tours
     (see Picture 12).


                                                    11
Efficiency Review of the Cleveland OH                                        NO-AR-12-005
 Processing and Distribution Center



   Power equipment was not staged in a central location, thereby requiring operators to
    search for equipment.

   Tow operators only moved mail in one direction, returning without either more mail
    or empty equipment.



Picture 10: Excess equipment is
staged on the dock. Once
additional equipment arrives from
the delivery stations, power
vehicles will be forced to tow
containers one at a time, rather
than three at a time due to dock
congestion. Source: OIG, January
10, 2012, 1:06 p.m.




Picture 11: Ten idle mailhandlers
(six shown here) were waiting 15
                         ®
minutes for Priority Mail sacks to
arrive. Source: OIG, January 11,
2012, 10:03 p.m.




Picture 12: Employees waiting to
clock off at 10:15 p.m. We
observed some waiting as long as
35 minutes before the end of the
tour. Source: OIG, January 11,
2012, 10:15 p.m.




                                           12
Efficiency Review of the Cleveland OH                                                NO-AR-12-005
 Processing and Distribution Center


LDC 18 - Miscellaneous Operations

Miscellaneous mail processing operations are recorded in LDC 18 and include:

    Stand-by time.
    Express and international mail processing.
    Registry cage.
    Empty equipment processing.
    Office work and several other activities.

The Cleveland P&DC used 9.3 percent of its mail processing workhours in LDC 18
during FY 2011, while the average of the above median Group 1 plants used
5.6 percent. Reducing workhours in miscellaneous operations by 63,046 would enable
the Cleveland P&DC to achieve the average productivity of the above median average
Group 1 plants (see Table 11).

      Table 11: LDC 18 - Miscellaneous Operations Potential Workhour Savings

                                                Above Median Plants        Cleveland P&DC
    LDC 18 Workhours                                 1,760,752                 158,240
    Total Workhours                                 31,455,074                1,700,598
    LDC 18 Percentage to Total Workhours               5.60%                    9.30%
    FY 2011 Cleveland P&DC LDC 18
                                                                   158,240
    Workhours
    Cleveland P&DC Target Workhours*                                95,194
          Potential Workhour Savings                               (63,046)
 Source: EDW. *Target workhours are the number of workhours necessary to raise Cleveland P&DC
 productivity to the average of the above median Group 1 plants.

Observations at the Cleveland P&DC revealed empty mail processing equipment
frequently required re--handling (see Picture 13).



Picture 13: Excess mail transport
equipment was located in every
operation. Employees did not
properly stack the mail trays on
pallets; therefore, additional
handling was required. Also, the
excess clutter slowed the efficient
movement of mail and forced
employees to manually move the
excess mail transport equipment.
Source: OIG, January 10, 2012,
12:32 p.m.




                                               13
 Efficiency Review of the Cleveland OH                                                   NO-AR-12-005
  Processing and Distribution Center


 Employee Complement

 While the Cleveland P&DC has reduced staffing levels over the last few years,
 increasing productivity to the median Group 1 plant will require additional reductions.
 There are 955 mail processing employees at the Cleveland P&DC, of which 876 are
 career employees (see Table 12). To save the recommended workhours, a reduction of
 about 200 employees would be required. We found that 34 percent of the Cleveland
 P&DC career employees are eligible to retire. With a reduction of noncareer employees
 and the national attrition rate of 5 percent, the Cleveland P&DC could achieve the
 recommended workhour savings over the next 3 fiscal years (see Table 13).

                                Table 12: Complement Summary

                                   WebCOINS January 26, 2012
                                    Clerk – Career                              510
                                     Clerk – PSE                                44
                        CLERK – Non Traditional Full Time                       15
                                Mailhandler – Career                            303
                          Mailhandler – Part Time Flexible                      48
                                Mailhandler – Casual                            35
                                         Total                                  955
                          Total Career Employees                                876
              Number of career employees eligible for retirement
                                                                                298
                           as of January 1, 2012
                Percent of employees eligible for retirement                 34.02%
              Source: Postal Service, Complement Information System (WebCOINS).

                          Table 13: Potential Savings Through Attrition

                                                                Annual              Projected
                                             Employees
                                                               Workhours*        Workhour Savings
   FY 2013 Noncareer Reduction                    79            137,618              137,618
  FY 2013 Anticipated Retirements                 44              76,648               214,266
  FY 2014 Anticipated Retirements                 42              73,164               287,430
  FY 2015 Anticipated Retirements               40                69,680                357,110
Source: EDW. *Annual workhours were calculated by multiplying the annual anticipated retirements by
1,742 annual workhours.




                                                   14
Efficiency Review of the Cleveland OH                                         NO-AR-12-005
 Processing and Distribution Center


Causes and Impacts on Operations

Management at the Cleveland P&DC had addressed operational efficiency by reducing
workhours in response to budgeted workhours. As a result, they reduced FY 2011
workhours by about 440,000 or 21 percent from FY 2009 levels. However, Postal
Service managers had not fully evaluated operational efficiency by benchmarking
operations against similar-sized plants, analyzed workhour trends, and supervised their
employees.

Additionally, observations revealed management at Cleveland P&DC did not fully
assess their potential automation options, and that some employees were not
sufficiently supervised during tour changes and returning off breaks to duty stations. We
also found some mail was not properly color-coded, prohibiting the efficient flow of mail.
Appendix B provides suggestions of possible sources of workhour reductions to improve
Cleveland P&DC efficiency. These best practices are not recommendations, and
management may or may not implement them at their discretion.

Consequently, the Cleveland P&DC used 352,388 more workhours than necessary,
which would produce a cost avoidance of $22.7 million over the next 2 years based on
its mail volume. See Appendix C for details. To increase productivity to the median
Group 1 plant at 1,069 mailpieces processed per workhour, Cleveland P&DC
management needs to reduce workhours, or increase mail volume through
consolidations by 377 million, or a combination of workhour reductions and mail
volumes increases.

Cleveland Processing and Distribution Center Management Actions

During our review, the Cleveland P&DC reported actions undertaken to address many
of the issues raised during the audit (see Appendix D). During our exit conference visit,
we noted improvements in mail flow, floor congestion, delayed mail, and color coding.

Recommendations

To improve efficiency at the Cleveland Processing and Distribution Center, we
recommend the vice president, Eastern Area Operations instruct Cleveland P&DC
management to:

1 By fiscal year 2017, reduce workhours by 352,388 to produce a cost avoidance of
  $22.7 million over the following 2 years, or through consolidations, increase mail
  volume by 377 million, or a combination of workhours reductions and mail volume
  increases that will achieve the median productivity level of 1,069 pieces per hour.

2. Periodically evaluate operating efficiency and staffing at the Cleveland Processing
   and Distribution Center to determine whether further workhour adjustments are
   necessary based on workload.




                                            15
Efficiency Review of the Cleveland OH                                          NO-AR-12-005
 Processing and Distribution Center


3. Maximize the utilization of automated equipment by reducing machine idle time.

4. Improve supervision of employees to ensure all employees are fully engaged.

5. Train employees to ensure proper color-coding of Standard Mail® according to
   Postal Service policy.

Management’s Comments

Management agreed with the recommendations and monetary impact in the report.
Specifically, management stated that:

   Network optimization will allow the Cleveland P&DC to better use space and
    equipment and operate more efficiently through the consolidation of other facilities.

   The Eastern Area will monitor efficiency of the Cleveland P&DC.

   Supervisor assignments will be realigned to improve employee oversight.

   Employees have been retrained to properly color-code mail. Daily reviews are
    conducted to ensure compliance.

See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                            16
Efficiency Review of the Cleveland OH                                                                        NO-AR-12-005
 Processing and Distribution Center


                                     Appendix A: Additional Information

Background

Mail processing is an integrated group of activities 3 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
(originating) mail to P&DCs and processing and distribution facilities for processing and
dispatch for a designated service area. P&DCs report directly to area offices on mail
processing matters. They also provide instructions on the preparation of collection mail,
dispatch schedules, and sort plan requirements to associate offices and mailers. The
Postal Service has more than 300 plants with mail processing operations.

We divided the plants that process mail into seven groups ranked by mail volume.
Chart 1 shows the percentage of mail processing plants in each group. The Group 1
plants are the largest and the Group 7 plants, the smallest.

                                Chart 2: Plant Grouping Based On Volume




                      Source: EDW.

The Cleveland P&DC is a Group 1 plant in the Eastern Area. The Cleveland P&DC
processes inbound and outbound mail for the city of Cleveland, OH, and associate
offices in the surrounding area. In FY 2011, the Cleveland P&DC processed about 1.44
billion mailpieces, a decrease of about 3 percent from FY 2010. Average complement
during this period decreased about 5 percent. In FY 2011, the on-roll complement was
1,020 employees compared to 1,077 employees in FY 2010.

Title 39 U.S.C. § 403 (a) states “The Postal Service shall plan, develop, promote, and
provide adequate and efficient postal services . . . .” The U.S. Postal Service
Transformation Plan also recommends that the Postal Service improve productivity. The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated December 20,

3
    Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.


                                                              17
Efficiency Review of the Cleveland OH                                            NO-AR-12-005
 Processing and Distribution Center


2006, highlights “. . . the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services . . .”

Objective, Scope, and Methodology

Our audit assessed the efficiency of operations performed by the Cleveland P&DC. To
assess the efficiency of the Cleveland P&DC, we observed mail processing operations;
analyzed mail volumes and workhours, evaluated machine utilization; interviewed
Postal Service officials; and benchmarked achievement to target productivities with
similar-sized plants.

We relied on Postal Service operational systems, including the National Workhour
Reporting System, the Breakthrough Productivity Initiative Website, the Management
Operating Data System, Web Flash Reports, the Web Enterprise Information System,
and the Web End-of-Run System to analyze mail volume and workhours. We checked
the accuracy of data by confirming our analysis and results with Postal Service
managers and found no material differences.

We conducted this performance audit from January through June 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 13, 2012, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




                                             18
 Efficiency Review of the Cleveland OH                                                    NO-AR-12-005
  Processing and Distribution Center



 Prior Audit Coverage

                                          Final
                     Report              Report       Monetary
Report Title         Number               Date         Impact                Report Results
Assessment of     NO-MA-12-001           4/27/2012   $664,997,872   W e found the Postal Service had not
Overall Plant                                                       yet fully adjusted workhours in
Efficiency 2012                                                     response to declining mail volume
                                                                    because of poor economic conditions
                                                                    or achieved all possible efficiencies
                                                                    in mail processing operations.
                                                                    The Postal Service could improve
                                                                    operational efficiency by reducing
                                                                    more than 14.2 million workhours by
                                                                    the end of FY 2014. Management
                                                                    agreed with the recommendations.
Assessment of     NO-MA-11-004           5/20/2011   $647,586,823   We found the Postal Service had not
Overall Plant                                                       yet fully adjusted workhours in
Efficiency 2011                                                     response to declining mail volume
                                                                    because of poor economic conditions
                                                                    nor achieved all possible efficiencies
                                                                    in mail processing operations.
                                                                    Management agreed they could
                                                                    improve operational efficiency by
                                                                    reducing more than 14 million
                                                                    workhours by the end of FY 2013.
                                                                    This would allow the Postal Service
                                                                    to achieve at least median
                                                                    productivity levels in the network and
                                                                    avoid costs of more than
                                                                    $647.5 million based on workhour
                                                                    savings for 1 year.
Houston, TX       NO-AR-11-004       12/14/2010      $189,744,682   We found a business case exists to
Processing                                                          consolidate the Houston P&DC’s
and                                                                 mail processing operations into the
Distribution                                                        North Houston P&DC provided the
Center Mail                                                         facility is expanded. Management
Consolidation                                                       agreed with the recommendations
                                                                    and will pursue the expansion of the
                                                                    North Houston P&DC and
                                                                    consolidate the Houston P&DC’s
                                                                    mail processing operation.
                                                                    The expansion and consolidation is
                                                                    expected to be completed by the end
                                                                    of FY 2013, pending an economic
                                                                    analysis study and approval of
                                                                    capital funding by the Capital
                                                                    Investment Committee.




                                                     19
 Efficiency Review of the Cleveland OH                                                    NO-AR-12-005
  Processing and Distribution Center


Assessment of     NO-MA-10-001           6/11/2010   $743,961,610   We found the Postal Service had not
Overall Plant                                                       yet fully adjusted workhours in
Efficiency 2010                                                     response to declining mail volume as
                                                                    a result of poor economic conditions,
                                                                    nor achieved all possible efficiencies
                                                                    in mail processing operations.
                                                                    Management agreed with the
                                                                    findings, recommendations, and
                                                                    monetary impact.
Dallas             NO-AR-10-003          2/24/2010   $114,041,172   We concluded that a business case
Processing                                                          exists to support consolidating the
and                                                                 Dallas P&DC’s outgoing mail
Distribution                                                        operation into the North Texas
Center                                                              P&DC. Management agreed with the
Outgoing Mail                                                       recommendations and is taking steps
Consolidation                                                       to consolidate the Dallas P&DC
                                                                    outgoing mail operations into the
                                                                    North Texas P&DC.
Assessment of     NO-MA-09-002           5/8/2009    $969,495,708   We found management has not yet
Overall Plant                                                       fully adjusted workhours in response
Efficiency                                                          to changes in workload nor achieved
                                                                    all possible efficiencies in mail
                                                                    processing operations provided by
                                                                    opportunities such as the introduction
                                                                    of additional automation.
                                                                    Management agreed with the
                                                                    recommendations and monetary
                                                                    impact.




                                                     20
Efficiency Review of the Cleveland OH                                                            NO-AR-12-005
 Processing and Distribution Center



    Appendix B: Cleveland Processing and Distribution Center Suggestions for
                             Improving Efficiency 4

   Adjust schedules of employees to match mail-flow and workload.
   Monitor jam rates on equipment.
   Assign maintenance staff to machines frequently needing repairs.
   Finalize equipment on first handling.
   Clear docks prior to the beginning of collection operations.
   Improve scheduling of preventative maintenance.
   Clean and rope off finalized operations.
   Ensure color-code tags are complete.
   Review employee clock rings for accuracy.
   Assign employees secondary duties during down time.
   Maximize the use of automation.
   Involve the Business Service Network in improving mail quality.
   Approve overtime in small increments rather than in whole hours.
   Monitor break areas for employees not scheduled for breaks.
   Have supervisors move with employees to other operations.
   Have supervisors meet employees at the time clock when they clock in.
   Ensure employees remain busy until the end of their tour.
   Coordinate tow operator trips to move mail on all trips.
   Align dock assignments to minimize movement of mail through the plant.




4
 These items present options to management as possible sources of workhour reductions. These best practices
observed at other facilities are not recommendations, and management may or may not implement them at their
discretion.


                                                      21
Efficiency Review of the Cleveland OH                                                                NO-AR-12-005
 Processing and Distribution Center


                                      Appendix C: Monetary Impact

                  Finding                     Impact Category                           Amount
                Cost Savings           Funds Put to Better Use 5                      $22,747,745

                      Total

           Notes
          The cost savings calculation was based on the reduction of 352,388 workhours
            phased in over a 3-year period multiplied by the escalated labor rate discounted
            over a 2-year period.

           The net present value was calculated using the discount rate of 2.6 percent over
            a 2-year period.

           Labor rates were based on the Cleveland P&DC Labor Utilization Reporting
            System for total function one.

           The yearly escalation factor is 1.8 percent, based on the Postal Service’s
            Decision Analysis Factors effective November 2011.




5
    Funds Put to Better Use - Funds that could be used more efficiently by implementing recommended actions.




                                                          22
Efficiency Review of the Cleveland OH                                                           NO-AR-12-005
 Processing and Distribution Center


                               Appendix D: Management’s Actions

   The Manager In-Plant Support, Managers Distribution Operations, and Manager of
    Maintenance 6 walk the workroom floor daily to ensure compliance with mail
    transportation equipment standard operating procedures.

   Locked time card racks have been relocated from a centralized location to individual
    operations. In addition, supervisors meet employees at the rack at begin tour to
    hand out badges and then lock them back up.

   Color-code tag expectations communicated on all tours. Color-code tags time
    stamped and handwritten with the date and time.

   Surface visibility and key ring scanners are accountable items monitored by a
    supervisor.

   Signage depicting goals and targets were hung on the workroom floor and the
    information is posted on bulletin boards.

   AFSM - Hourly throughputs are posted every hour on grease boards.

   Automation quality heat map trend reports are posted and communicated daily.

   Holiday staffing and scheduling training was provided to all supervisory employees.

   Daily attendance control reports are provided to senior management highlighting
    employee availability by tour by day.

   Lanes were clearly marked in the robot staging area to prevent comingling empty
    equipment and incoming mail.

   The computerized forwarding room was cleaned out and is vacant, awaiting network
    optimization floor layout changes.

   All Standard Mail is processed 2 days in advance to avoid delayed mail.

   Periodical Mail is processed by 10:30 a.m. and sent to the Flat Sequence System
    site to avoid delayed mail.

   Employee-on-clock report is pulled on the hour to validate employees on the clock.

   Retrained all postal support employees in automation to improve quality and
    efficiency.


6
 The Cleveland P&DC management reported these actions taken and planned. During our exit conference visit, we
noted improvements in mail flow, floor congestion, delayed mail, and color coding.


                                                      23
Efficiency Review of the Cleveland OH                                          NO-AR-12-005
 Processing and Distribution Center


   Trained all APBS employees to enforce improvements with throughputs and
    productivity.

   Reduced the overtime to less than 2.5 percent.

   Improved cancellations by 20:00.

   Improved outgoing primary and outgoing secondary performance.

   Established a 2-day hot case completed 30 minutes after Managed Mail Program
    mail is finalized by 8 p.m.

   Working on preparing plant for network optimization.

    Work In Progress:

   Reducing dock operation workhours.

   After the AFCS operation is finalized, send all flexible employees home.

   Tour 3 and Tour 1 Turnover - Review events when all employees are on the clock
    during the first 2 hours.

   LDC 14 – use the Low Cost Reject Encoding Machine (LCREM) to reduce manual
    and automation working volume. Maximize the use of the LCREM.

   896 Breakdown - close operation on time; do not leave open all day and night.

   Constant supervision of tow motor and fork lift operators.

   Focus on workhours and Breakthrough Productivity Initiative improvements.




                                            24
Efficiency Review of the Cleveland OH                            NO-AR-12-005
 Processing and Distribution Center


                             Appendix E: Management’s Comments




                                           25
Efficiency Review of the Cleveland OH        NO-AR-12-005
 Processing and Distribution Center




                                        26
Efficiency Review of the Cleveland OH        NO-AR-12-005
 Processing and Distribution Center




                                        27
Efficiency Review of the Cleveland OH        NO-AR-12-005
 Processing and Distribution Center




                                        28
